Office of Material Loss Reviews
Report No. MLR-10-005


Material Loss Review of Westsound Bank,
Bremerton, Washington




                                  December 2009
                                      Executive Summary

                                      Material Loss Review of Westsound Bank,
                                      Bremerton, Washington
                                                                                       Report No. MLR-10-005
                                                                                              December 2009

Why We Did The Audit
On May 8, 2009, the Washington State Department of Financial Institutions (DFI) closed Westsound
Bank (Westsound), Bremerton, Washington, and named the FDIC as receiver. On June 5, 2009, the
FDIC notified the Office of Inspector General (OIG) that Westsound’s total assets at closing were
$324.1 million and the estimated loss to the Deposit Insurance Fund (DIF) was $106.2 million. As of
November 13, 2009, the estimated loss had increased to $106.4 million. As required by section 38(k) of
the Federal Deposit Insurance (FDI) Act, the OIG conducted a material loss review of the failure of
Westsound.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Westsound was an FDIC-supervised state nonmember bank that was insured by the FDIC on March 12,
1999. The bank was headquartered in Bremerton, Washington, and had eight branches. Westsound
engaged principally in commercial real estate (CRE) and acquisition, development, and construction
(ADC) lending within its local market area, which began experiencing an economic downturn in 2007.
Westsound was 100-percent owned by the WSB Financial Group, Bremerton, Washington, which was
publicly traded.

Audit Results

Causes of Failure and Material Loss

Westsound failed because its board of directors (Board) and management did not implement risk
management practices commensurate with rapid asset growth and a loan portfolio with significant
concentrations in higher-risk ADC loans. Specifically, weak loan underwriting and credit administration
practices associated with ADC concentrations became apparent as the local real estate market
deteriorated. As loan losses related to the ADC loans were recognized, capital eroded and liquidity
became strained. A contributing factor to the losses was an inadequately designed and monitored
incentive compensation program under which one bank official generated the vast majority of the poor
quality loans. Westsound’s viability was also impacted by negative publicity associated with a
shareholder lawsuit filed in October 2007, which prompted depositors to leave the bank. The DFI
ultimately negotiated a return of the bank’s charter with Westsound’s Board and management before the
bank became critically undercapitalized or experienced a liquidity crisis, and closed the institution on
May 8, 2009.

The FDIC’s Supervision of Westsound

The FDIC and DFI provided continuous supervisory oversight of Westsound from the bank’s inception in
March 1999 until the bank was closed in May 2009. Beginning with the March 2000 examination,
examiners consistently identified the increasing concentrations in its ADC and CRE loan portfolios and/or
weaknesses in Westsound’s loan underwriting and credit administration and made recommendations to
address these risks. Not until 2007, however, after looking into allegations regarding lending



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Westsound Bank,
                                      Bremerton, Washington
                                                                                     Report No. MLR-10-005
                                                                                            December 2009

irregularities, were examiners able to fully determine the financial impact of, and pursue supervisory
action to address, the long-standing concentrations and weaknesses. Further, examiners reported
concerns and made recommendations regarding Westsound’s liquidity management, over three
examinations conducted from 2005 to 2007, which bank management did not adequately address. We
recognize that the examiners’ actions were reasonable at the time, given that financial indicators were
satisfactory and management had committed to correcting noted concerns. However, in hindsight, earlier,
more aggressive supervisory action to ensure management corrected various deficient lending and
liquidity policies and practices and curtailed growth in high-risk loans that contributed to the bank’s
failure, could have mitigated, to some extent, the losses to the DIF.

With respect to PCA, the FDIC properly implemented applicable PCA provisions of section 38; however,
PCA’s role in mitigating the losses to the DIF was limited because PCA did not require action until the
institution was at serious risk of failure. Based on the results of the October 2007 examination, the FDIC
issued a Cease and Desist Order (C&D) in March 2008 that included, among other things, a capital
provision that directed Westsound to maintain the following capital ratios: (1) Tier 1 Capital of 8 percent,
(2) Tier 1 Risk-Based Capital of 10 percent, and (3) Total Risk-Based Capital of 13 percent. Such ratios
were greater than the minimum required by PCA for Well Capitalized institutions. As a result of the
C&D, Westsound became subject to certain restrictions defined in PCA, including a prohibition on the
acceptance, renewal, or rollover of brokered deposits without the FDIC’s approval.


Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On November 30, 2009, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of Westsound’s failure. With regard to our
assessment of the FDIC’s supervision of Westsound, DSC’s response cites several supervisory activities,
discussed in our report, that were taken to address key risks in Westsound. DSC’s response also states
that it has provided guidance reminding examiners to take appropriate action when concentration risks are
imprudently managed, and issued guidance on structuring compensation, which directed bank
management to develop policies that are aligned with the institution’s long-term prudential interests.




                                  To view the full report, go to www.fdicig.gov
                                Contents
                                                                     Page
Background                                                             2

Causes of Failure and Material Loss                                    2
 Risk Management Practices Associated with Rapid Growth                3
 ADC and CRE Loan Concentrations                                       4
 Loan Underwriting and Credit Administration Practices                 5
 Incentive Compensation Program                                        6

The FDIC’s Supervision of Westsound Bank                               7
 Supervisory History                                                   8
 Supervisory Concerns and Actions                                      9
 Implementation of PCA                                                13

Corporation Comments                                                  14

Appendices 
 1. Objectives, Scope, and Methodology                                15
 2. Glossary of Terms                                                 17
 3. Acronyms                                                          19
 4. Corporation Comments                                              20

Tables
 1. Selected Financial Information for Westsound                       2
 2. Westsound’s ADC Concentrations Compared to Peers                   4
 3. Westsound Official’s Compensation                                  7
 4. Westsound’s Supervisory History, 1999-2008                         8
 5. Westsound’s Brokered Deposits History, 2007-2009                  12
 6. Westsound’s Capital Levels Relative to PCA Thresholds for Well    14
    Capitalized Institutions

Figure
    Composition and Growth of Westsound’s Loan Portfolio               3
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     December 2, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Westsound Bank, Bremerton,
                                          Washington (Report No. MLR-10-005)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the FDIC
Office of Inspector General (OIG) conducted a material loss1 review of the failure of
Westsound Bank (Westsound), Bremerton, Washington. The Washington State
Department of Financial Institutions (DFI) closed Westsound on May 8, 2009 and named
the FDIC as receiver. On June 5, 2009, the FDIC notified the OIG that Westsound’s total
assets at closing were $324.1 million and the estimated loss to the Deposit Insurance
Fund (DIF) was $106.2 million. As of November 13, 2009, the estimated loss was
increased to $106.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to: (1) determine the causes of
Westsound’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision2 of Westsound, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of Westsound’s
failure and the FDIC’s efforts to ensure that Westsound’s Board of Directors (Board) and



1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
management operated the institution in a safe and sound manner. The report does not
contain formal recommendations. Instead, as major causes, trends, and common
characteristics of financial institution failures are identified in our material loss reviews,
we will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of DSC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology. Appendix 2 contains a glossary of key terms; and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
Westsound was an FDIC-supervised state nonmember bank that was insured on
March 12, 1999 in Bremerton, Washington. In addition to its main office, Westsound
had eight branch offices. The institution was 100-percent owned by WSB Financial
Group, Inc. (WSB), Bremerton, Washington, a publicly-owned, one-bank holding
company. Westsound did not have any principal shareholders but had one affiliate. The
majority of Westsound’s lending was in commercial real estate (CRE), with a significant
concentration in acquisition, development, and construction (ADC) loans. Table 1
provides details on Westsound’s financial condition as of March 31, 2009 and for the 4
preceding calendar years.

Table 1: Selected Financial Information for Westsound
Financial Measure                   03/31/2009   12/31/2008      12/31/2007   12/31/2006   12/31/2005
Total Assets ($000s)                 $334,608        $364,960    $489,008     $385,969      $250,042
Total Deposits ($000s)               $304,464        $330,178    $422,216     $316,078      $224,509
Gross Loans & Leases ($000s)         $260,047        $284,626    $413,917     $344,739      $210,015
Net Income ($000s)                   ($4,320)        ($30,940)   ($4,189)      $4,282        $2,596
Source: Uniform Bank Performance Reports (UBPR) and Consolidated Reports of Condition and Income
(Call Report) for Westsound Bank.



Causes of Failure and Material Loss
Westsound failed because its Board and management did not implement risk
management practices commensurate with rapid asset growth and a loan portfolio with
significant concentrations in higher-risk ADC loans. Specifically, weak loan
underwriting and credit administration practices associated with ADC concentrations
became apparent as the local real estate market deteriorated. As loan losses related to the
ADC loans were recognized, capital eroded and liquidity became strained. A
contributing factor to the losses was an inadequately designed and monitored incentive
compensation program under which one bank official generated the vast majority of the
poor quality loans. Westsound’s viability was also impacted by negative publicity
associated with a shareholder lawsuit filed in October 2007, which prompted depositors
to leave the bank. The DFI ultimately negotiated a return of the bank’s charter with


                                                 2
Westsound’s Board and management before the bank became critically undercapitalized
or experienced a liquidity crisis, and closed the institution on May 8, 2009.

Risk Management Practices Associated with Rapid Growth

Westsound management aggressively pursued rapid growth in higher risk ADC and CRE
lending without implementing and monitoring sound lending practices. Doing so left the
bank vulnerable to declining real estate values and imprudent lending activities of its loan
officers. From 2001 to 2007, Westsound’s assets increased from $32.5 million to
$489 million as it grew its loan portfolio predominantly with higher risk ADC and CRE
loans. This growth was particularly aggressive in 2004 and 2005 when the bank
experienced an average asset growth rate of over 80 percent each year. The figure below
illustrates the general composition and growth of Westsound’s loan portfolio in the years
preceding the institution’s failure. As reflected in the figure, concentrations in ADC and
other CRE loans were substantial.

Figure: Composition and Growth of Westsound’s Loan Portfolio

                                      $450                                               $414

                                                        All Other Loans
                                      $400                                   $345
                                                        Other CRE Loans                 $74
  Gross Loans and Leases (Millions)




                                      $350              ADC Loans
                                                                                                    $285
                                                                             $67
                                      $300                                              $87                   $260


                                      $250                     $210                                $74
                                                                             $83
                                                                                                              $72
                                      $200                     $51
                                                                                                   $74
                                                $119                                                          $75
                                      $150
                                                               $55                      $253
                                                $35                          $195
                                      $100
                                                $43                                                $137
                                                              $104                                            $113
                                      $50
                                                $41
                                       $0
                                             Dec-2004      Dec-2005       Dec-2006   Dec-2007   Dec-2008   Mar-2009
                                                                             Period Ended


Source: OIG analysis of Call Reports for Westsound.

Examiners reported in the February 2006 Report of Examination (ROE) that the risk
profile of the loan portfolio was elevated by rapid growth, high concentrations in ADC
and CRE loans, and the large volume of high loan-to-value credits. Examiners also noted
that the bank’s lending policies had not kept pace with the growth and increasing
complexity of the portfolio. Bank management agreed to improve the credit policy,
establish and track concentration limits, and improve loan-quality reporting capabilities.
However, in February 2007, examiners found that weaknesses in loan administration and
risk management still posed a significant concern. Examiners stated that extended

                                                                                3
absences on the part of key senior management officials who were promoting the bank in
anticipation of its 2006 initial public offering (IPO)3 contributed to the bank’s problems.
The IPO generated approximately $40 million in capital.

Senior management’s extended absences became even more apparent in August 2007,
when the FDIC and DFI conducted a visitation to investigate claims raised by two
members of the community regarding lending irregularities at one of the bank’s branches.
Examiners found that management oversight and supervision were deficient and risk
management practices were inadequate given the nature of the institution’s operations.

Based on the issues identified at the August 2007 visitation, FDIC and DFI officials
scheduled an examination for October 2007. At the October 2007 examination,
Westsound’s asset quality had significantly deteriorated with adversely classified assets
representing 191 percent of the total of Tier 1 Capital and the allowance for loan and
lease losses (ALLL). Examiners attributed the asset quality deterioration to inadequate
Board oversight and supervision over ADC lending, particularly at one of the bank’s
branches, where one loan officer originated the majority of the adversely classified ADC
loans.

Examiners also faulted Westsound’s Board and management strategy of generating loan
volume while over-relying on collateral and a continued strong Seattle-area real estate
market, instead of implementing prudent lending practices. As the real estate market
began to deteriorate in 2007, Westsound was unable to sell its problem loans at face
value, which led to continuing declines in liquidity and capital.

ADC and CRE Loan Concentrations

Westsound’s management failed to effectively measure and monitor the higher risk in
concentrating the bank’s loan portfolio in ADC and CRE lending. From 2001 to 2007,
the percentage of ADC and CRE loans was increasing, compounding the bank’s risk. As
Table 2 shows, during this period, Westsound ranked higher than almost all banks in its
peer group with respect to ADC loans as a percent of total capital and as a percent of total
loans.

Table 2: Westsound’s ADC Concentrations Compared to Peers
                               ADC Loans as a                                      ADC Loans as a
      Period               Percent of Total Capital                             Percent of Total Loans
      Ended                                   Westsound                                            Westsound
                     Westsound      Peers                                Westsound      Peers
                                               Percentile                                          Percentile
    Dec 2004            289.50      80.62           95                     34.66        11.14          95
    Dec 2005            393.74      91.09           98                     49.41        12.81          98
    Dec 2006            269.34      117.39          89                     56.57        18.83          98
    Dec 2007            368.21      123.60          95                     61.31        16.49          99
    Dec 2008            377.61      111.07          96                     48.36        14.47          98
Source: UBPR data for Westsound.


3
    An IPO is a corporation’s first offer to sell stock to the public.

                                                           4
The FDIC’s December 2006 guidance entitled, Concentrations in Commercial Real
Estate Lending, Sound Risk Management Practices, recognizes that there are substantial
risks posed by CRE concentrations, and in particular ADC concentrations. Such risks
include unanticipated earnings and capital volatility during a sustained downturn in the
real estate market. The guidance defines institutions with significant CRE concentrations
as those reporting loans for construction, land development, and other land representing
100 percent or more of total capital; or institutions reporting total CRE loans representing
300 percent or more of total capital where the outstanding balance of CRE has increased
by 50 percent or more during the prior 36 months. Due to the risks associated with CRE
and ADC lending, regulators consider institutions with significant CRE and ADC
concentrations to be of greater supervisory concern.

Prior to 2006, examiners did not express concern with Westsound’s loan concentrations
and noted that the level of adversely classified items was low. At the 2006 examination,
they reported that asset quality was satisfactory, as evidenced by the low levels of
adverse classifications and past due loans. However, given the bank’s elevated risk
profile due to high ADC loan concentrations, examiners recommended improvements to
risk management processes in relation to economic conditions and asset concentrations.

The poor quality of many of the ADC and CRE loans began to manifest itself when loan
classifications increased from $128,000 in December 2005, to nearly $10.9 million in
December 2006, and to $144.5 million by September 2007. Examiners commented in the
October 2007 ROE that the concentrations in ADC and CRE lending far exceeded
regulatory thresholds, concentration monitoring did not comply with regulatory guidance,
and adversely classified assets had increased to an unacceptable level at 191 percent of
the total of the institution’s Tier 1 Capital and the ALLL, compared to 15 percent at the
February 2007 examination. Examiners also noted in the October 2007 ROE that
83 percent of the loans and contingent liabilities classified substandard were attributed to
loans originating at one of the bank’s branches and the ALLL needed to be increased by
$13.3 million.

In August 2008, examiners found that the bank’s poor asset quality threatened its
viability, as the volume of items subject to adverse classification rose to a crippling
226 percent of the total of Tier 1 Leverage Capital and the ALLL. Delinquent loans
represented 41 percent of gross loans and nonaccrual loans represented 30 percent of total
loans. Seventy-nine percent of the loans subject to adverse classifications were ADC
loans originating out of the branch discussed above. As discussed in the next sections,
the risks associated with Westsound’s loan concentrations were the result of weak loan
underwriting and credit administration practices and an excessive compensation program.

Loan Underwriting and Credit Administration Practices

Westsound’s Board and management did not implement sound loan underwriting and
credit administration practices, which contributed to the asset quality problems that
developed in the institution’s loan portfolio as the bank’s local real estate market began to
deteriorate in 2007.


                                             5
For FDIC-supervised institutions, Part 365 of the FDIC Rules and Regulations requires
each institution to adopt and maintain written real estate lending policies that are
consistent with sound lending principles, appropriate for the size of the institution and the
nature and scope of its operations. Within these general parameters, the regulation
specifically requires an institution to establish policies that include:

   •   portfolio diversification standards;
   •   prudent underwriting standards, including loan-to-value limits;
   •   loan administration procedures;
   •   documentation, approval, and reporting requirements; and
   •   procedures for monitoring real estate markets within the institution's lending area.

As early as the March 2000 examination, examiners began raising concerns about
Westsound’s credit administration practices, in particular, loan documentation
deficiencies and inconsistencies in the loan policy. The next several examinations
concluded that Westsound had overall satisfactory credit quality and practices but
included recommendations to enhance practices in this area. Specifically, in 2002,
examiners cited the need for additional improvement in loan underwriting. In 2003,
examiners recommended that management improve debt service analysis for income
property loans and real estate collateral valuations. At the 2005 examination, examiners
again recommended that management improve debt service analysis for income property
loans.

Further, the February 2006, February 2007, and October 2007 ROEs cited numerous
concerns regarding loan underwriting and credit administration, which included
inadequate:

   •   loan policies,
   •   concentration risk management practices,
   •   monitoring and control over loan disbursements,
   •   risk management practices related to collecting and analyzing borrowers’
       financial information, and
   •   ALLL methodology.

The October 2008 ROE stated that management had made improvements to enhance
credit administration practices but improvement was still needed in the areas of:
implementing recommendations from the previous examination regarding improving the
loan policy, completing problem asset servicing reports, and employing experienced
lending staff.

Incentive Compensation Program

Westsound’s management did not adequately design and oversee its incentive
compensation program, which led to a significant volume of adversely classified loans
being generated by one of the bank’s officials. The program provided incentive


                                              6
compensation based on loan production without any consideration of asset quality and
included incentives for renewals and extensions of loans that failed to pay off at maturity.

On November 12, 2008, an Interagency Statement on Meeting the Needs of Creditworthy
Borrowers (FIL-128-2008) included guidance on structuring compensation.4
Specifically, the guidance states that poorly-designed management compensation policies
can create perverse incentives that can ultimately jeopardize the health of the banking
organization. Management compensation policies should be aligned with the long-term
prudential interests of the institution; provide appropriate incentives for safe and sound
behavior; and structure compensation to prevent short-term payments for transactions
with long-term horizons.

At the October 2007 joint FDIC/DFI examination, examiners attributed the precipitous
decline in the institution’s financial condition to one bank official, who received over
$1.2 million in total compensation from 2005 to 2007, as shown in Table 3, for
generating construction loans. Of these loans, approximately 83 percent were adversely
classified and were mainly responsible for the additional $13.3 million needed to restore
the ALLL to an adequate level.

Table 3: Westsound Official’s Compensation
                                                            Incentive                    Total
              Year                   Salary               Compensation                Compensation
    2005 (6 months)                        $30,000                  $45,211                     $75,211
    2006 (12 months)                       $60,000                 $459,267                    $519,267
    2007 (7 months)                        $35,000                 $572,691                    $607,691
     Total (25 months)                    $125,000               $1,077,169                 $1,202,169
Source: October 2007 ROE for Westsound.



The FDIC’s Supervision of Westsound Bank
The FDIC and DFI provided continuous supervisory oversight of Westsound from the
bank’s inception in March 1999 until the bank was closed in May 2009. Beginning with
the March 2000 examination, examiners consistently identified the increasing
concentrations in its ADC and CRE loan portfolios and/or weaknesses in Westsound’s
loan underwriting and credit administration and made recommendations to address these
risks. Not until 2007, however, after looking into allegations regarding lending
irregularities, were examiners able to fully determine the financial impact of, and pursue
supervisory action to address, the long-standing concentrations and weaknesses. Further,
examiners reported concerns and made recommendations regarding Westsound’s
liquidity management, over three examinations conducted from 2005 to 2007, which
bank management did not adequately address. We recognize that the examiners’ actions
were reasonable at the time, given that financial indicators were satisfactory and
management had committed to correcting noted concerns. However, in hindsight, earlier,

4
  The policy was not in place at the time Westsound designed its compensation program but illustrates that
banks should review compensation policies to ensure they are consistent with the longer-run objectives of
the organization and sound lending and risk management practices.

                                                     7
more aggressive supervisory action to ensure management corrected various deficient
lending and liquidity policies and practices and curtailed growth in high-risk loans that
contributed to the bank’s failure, could have mitigated, to some extent, the losses to the
DIF.

Supervisory History

From October 1999 through August 2008, the FDIC and the DFI conducted nine safety
and soundness examinations and three visitations of Westsound. From April 2001
through February 2007, the bank consistently received a composite “2” CAMELS rating.5
The bank’s ratings declined precipitously in subsequent examinations. With respect to
informal and formal corrective actions, Westsound’s management agreed to adopt a Bank
Board Resolution (BBR) after the February 2007 examination and stipulated to a Cease
and Desist Order (C&D) after the October 2007 examination. Table 4 summarizes
Westsound’s supervisory history.

Table 4: Westsound’s Supervisory History, 1999-2008

                                        Supervisory
    Examination Start                     Ratings
           Date          Agency           (UFIRS)                       Supervisory Action
    08/25/2008          FDIC/DFI        454542/5         Institution closed on 5/08/2009.

    10/01/2007          FDIC/DFI        344442/4         C&D issued on 3/10/2008.
                        FDIC/DFI        No Ratings
    08/06/2007          Visitation      Assigned         None.
    02/20/2007          DFI             123222/2         BBR adopted on 5/16/2007.
    02/13/2006          FDIC            222222/2         None.
                                                         Supervisory Directive related to Information
                                                         Technology (IT) adopted on 2/15/2005. BBR
    01/05/2005          DFI             222222/2         regarding IT adopted on 2/21/2006.
    07/21/2003          FDIC            222222/2         None.
    02/19/2002          FDIC            222222/2         None.
    04/09/2001          FDIC/DFI        223322/2         None.
                        FDIC
    10/05/2000          Visitation      223322/3         None.
    03/13/2000          DFI             223332/3         Supervisory Directive issued on 4/18/2000.
                        FDIC
    10/25/1999          Visitation      223222/2         None.
Source: FDIC ViSION system and ROEs for Westsound.

Although Westsound received a composite “2” CAMELS rating for the February 2007
examination, DFI downgraded management to a “3” because of significant risks posed by
weak underwriting and credit administration practices and encouraged the Board to adopt
a BBR effective May 2007. In July 2007, as previously mentioned, two members of the

5
 Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

                                                     8
community informed the DFI about lending irregularities at one of the bank’s branches,
and the FDIC and DFI conducted a joint visitation in August 2007 to investigate. The
visitation revealed significant asset quality problems, and a full-scope examination was
accelerated to October 2007.

As a result of the significant deterioration in Westsound’s condition found during the
October 2007 examination, the FDIC and the DFI downgraded the bank to a composite
“4” CAMELS rating and issued a C&D on March 10, 2008 to address unsafe and
unsound practices. The order required the institution to, among other things, increase
Board and management oversight, adopt an adequate employee compensation plan,
develop a plan to reduce adversely classified and criticized assets, and maintain minimum
capital ratios. The order also restricted the institution from soliciting, retaining, or rolling
over brokered deposits without a waiver. Also, after the October 2007 examination, the
FDIC placed the bank on daily liquidity monitoring, which continued until the bank was
closed.

A final examination, conducted in August 2008, found that the bank’s condition had
further deteriorated since October 2007, resulting in a downgrade of the bank to a
composite “5” CAMELS rating. Examiners stated that bank management had made
efforts to comply with the C&D but that continued efforts were needed going forward to,
in particular, ensure compliance with the brokered deposit provision. Following the
August 2008 examination, the FDIC remained concerned about the bank’s liquidity given
the shareholder lawsuits and negative publicity.

Supervisory Concerns and Actions

2006 Examination

In addition to significant weaknesses identified in the bank’s loan administration and
credit underwriting practices, the February 2006 ROE noted that the lending policies and
practices had not kept pace with the growth and increasing complexity of the bank’s loan
portfolio; portfolio concentration limits were not in place; adherence to the existing land
loan concentration and diversification limits had not been tracked and reported; the
ALLL analysis should be enhanced; and ADC and CRE concentrations were 633 percent
and 232 percent of Tier 1 Capital, respectively. Examiners, however, stated that the
Board satisfactorily oversaw the affairs of the bank and adapted to changing conditions
and consequently gave management a component rating of “2.” Further, examiners gave
the asset quality component a “2” rating and did not recommend that the bank diversify
its loan portfolio.

The Chairman of the Board provided a response to the FDIC on April 17, 2006, which
contained a 54-point plan of action to address the recommendations. FDIC officials told
us that the bank’s response was deemed sufficient, so there was no follow-up until the
next examination. Notwithstanding the response, the risks identified in the 2006 ROE
seem to be in contrast with the broader definition of a “2” rating for the management and
asset quality components, which indicate that (1) bank management is satisfactory with
respect to risk management practices relative to the institution’s size, complexity, and

                                               9
risk profile and (2) weaknesses in asset quality and credit administration practices
warrant a limited level of supervisory attention.

Although bank management agreed to implement corrective action to address the
concerns identified in the 2006 examination, Westsound continued to engage in risky
lending practices. Specifically, after the 2006 examination:

   •   Loans increased by over $96 million for the last three quarters of 2006 and by
       $85 million during the first three quarters of 2007.
   •   Concentrations of ADC and CRE loans as a percentage of total loans continued to
       increase in 2006 through the third quarter of 2007.
   •   Adverse loan classifications grew from $128,000 in December 2005 to nearly
       $10.9 million in December 2006, and to $144 million by the October 2007
       examination.

Further, in addition to Westsound’s risky lending practices, its reliance on brokered
deposits increased by over $9 million during the last three quarters of 2006 and by over
$17 million during the first three quarters of 2007.

Of significance is the fact that the Board focused on raising additional capital to fund
loan growth in 2006 and was able to raise an additional $40 million via an IPO.
Examiners had commented in the February 2006 ROE that Westsound’s growth had been
adequately accommodated by new stock issuances in 2003 and 2004 and $7.9 million in
trust-preferred securities in 2005, and that if growth exceeded the 2006 budget pace,
additional capital may be required. In the February 2007 ROE, examiners noted that
(1) asset quality was satisfactory as a result of the $40 million capital injection and
(2) management had demonstrated its ability to raise capital and could do so again if
necessary. In hindsight, regulators may have placed too much reliance on bank
management’s ability to raise capital rather than focusing on the increased risk posed by
rapid growth in the higher-risk ADC and CRE loan portfolios.

In hindsight, consideration of a downgrade in the management and asset quality ratings
and related supervisory action in 2006 might have curtailed the Board’s pursuit of growth
at the expense of sound lending practices and prompted the Board to correct the
deficiencies, strengthen the bank’s loan portfolio, and be in an improved position when
the real estate market started its decline in 2007.

Incentive Compensation Program

The FDIC identified the need to review Westsound’s incentive compensation program in
its pre-examination planning memorandum for the 2006 examination and conducted a
limited review of the program. However, we identified key documents in the 2006




                                             10
examination work papers that should have elevated the FDIC’s concern regarding the
program and prompted a more thorough analysis. Specifically,

    •   The profit/loss statement showed that the bank had paid out over $817,000 in
        loan commissions in 2004, and over $1.8 million in loan commissions in 2005.
    •   One bank official produced approximately 83 percent of loans for one of the
        branches from September 2005 through December 2005 and over 92 percent of
        loans in January 2006. As discussed earlier, these loans were identified as the
        primary cause of the deterioration in asset quality.

Although the amount of commissions paid in 2005 should have warranted greater
supervisory concern and review at the 2006 examination, at the time, DSC’s focus was on
excessive Board compensation. Further, DSC officials noted that the extent of
commissions paid did not, in and of themselves, seem inconsistent with an active
mortgage banking operation like that of Westsound.

On November 12, 2008, the Department of the Treasury, the FDIC, and the Federal
Reserve jointly issued FIL-128-2008, entitled Interagency Statement on Meeting the
Needs of Creditworthy Borrowers. The FIL was issued to provide guidance to banking
organizations for ensuring the adequacy of their capital base, engaging in appropriate loss
mitigation strategies and foreclosure prevention, and reassessing the incentive
implications of their compensation policies. Specifically, compensation policies should:

•   be aligned with the long-term prudential interests of the institution,
•   provide appropriate incentives for safe and sound behavior,
•   structure compensation to prevent short-term payments for transactions with long-
    term horizons, and
•   balance the ongoing earnings capacity and financial resources of the banking
    organization.

Liquidity

From the April 2001 through the February 2007 examinations, Westsound’s liquidity
component was rated a “2.” At the 2006 examination, however, examiners noted that the
bank had funded most of its liquidity needs by offering the highest rates in the nation for
money market accounts and considered these deposits as core deposits. At year-end
2006, Westsound’s net interest margin had declined due to expensive Certificates of
Deposit specials that reached 6 percent. The bank’s high cost of funds also impacted its
net interest income in that the bank’s liability structure was largely comprised of time
deposits. The high interest rates the bank paid on these time deposits could have been
considered volatile and, therefore, the time deposits would have increased the bank’s net
non-core dependency ratio.

DFI examiners stated in February 2007 that Westsound was operating outside of its
primary liquidity and dependency limits for much of 2006. Examiners recommended that
the Board enhance the contingency liquidity plan (CLP) to include the identification of


                                            11
the risk of a liquidity crisis, triggers and indicators of a liquidity crisis, and available
contingent funding sources.

The October 2007 examination noted that liquidity was deemed deficient and
management might not be able to meet liquidity needs. Examiners further stated that
Westsound was unable to secure any lines of credit or borrow from the Federal Home
Loan Bank due to the bank’s financial condition. In light of increasing volatile deposits,
depositors would most likely continue to leave the bank since it could no longer pay
above market rates, and a significant amount of maturing brokered deposits could not be
renewed.

FDIC officials told us during interviews that they were very concerned about
Westsound’s liquidity and had placed the bank on daily liquidity monitoring after the
October 2007 examination. As shown in Table 5, Westsound’s brokered deposits
initially decreased after the C&D was issued in March 2008.

                Table 5: Westsound’s Brokered Deposits History, 2007-2009
                             Date                      Amount
                            06/30/07                  $37,792,000
                            09/30/07                  $38,214,000
                            12/30/07                  $65,149,000
                            03/31/08                  $57,556,000
                            06/30/08                  $30,313,000
                            09/30/08                  $28,139,000
                            12/31/08                  $55,212,000
                            03/31/09                  $46,837,000
                 Source: UBPRs for Westsound.

It should be noted that the increase in brokered deposits during the latter part of 2008 was
primarily due to Westsound’s reclassification of high-rate deposits as brokered deposits,
at the insistence of the FDIC. This reclassification came about as a result of an
investigation by the FDIC of rates being paid by the bank.

Our review of Westsound’s May 2007 and July 2008 CLPs found that the bank’s plans
did not address many criteria suggested in the FDIC’s Examination Manual, such as a
periodic review of the bank’s deposit structure, a method for computing the bank’s cost
of funds, ensuring an independent and periodic review of the liquidity management
process, and a process for measuring and monitoring liquidity. The July 2008 CLP
provided a more detailed plan for the use of brokered deposits even though the bank had
been precluded from accepting, renewing, or rolling over brokered deposits per the
March 2008 C&D.

In March 2009, 2 months prior to Westsound’s failure, The FDIC issued additional
guidance related to liquidity (FIL-13-2009) entitled, The Use of Volatile or Special
Funding Sources by Financial Institutions That are in a Weakened Condition, which
informed financial institutions that the FDIC monitors “1”- and “2”-rated institutions to
identify characteristics that may indicate a heightened risk of future problems. The
guidance notes that aggressive growth strategies or reliance on non-core liabilities to fund

                                                12
riskier assets will result in heightened off-site monitoring and on-site examinations that
are more extensive than those applicable to other institutions and may result in higher
deposit insurance premiums.

An FDIC official told us that the Corporation has changed the way brokered deposit
restrictions are handled. The FDIC now issues a letter to the bank requesting that the
bank refrain from using brokered deposits as a funding source, particularly when the
FDIC knows the bank will be placed under a C&D that will trigger Part 337.6 of the
FDIC Rules and Regulations, which restricts the use of brokered funds.

Examiners recognized the risk in the weakness of the bank’s asset and liability policy as
early as January 2005. Examiners recommended updates to this policy and the CLP in
the January 2005, February 2007, October 2007, June 2008, and August 2008 ROEs.
Bank management failed to appropriately and effectively implement these
recommendations, which caused an increased strain on liquidity. Had Westsound
implemented these recommendations earlier, its liquidity might not have been as tenuous.
Further, had the FDIC been more forceful with these recommendations before specific
liquidity ratios were mandated in the March 2008 C&D, the bank might have been more
proactive in updating this policy, and thus better prepared for the liquidity crisis it
eventually experienced as a result of the significant and continuing decline in asset
quality.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions of section 38. However, in the case of Westsound, PCA’s role in mitigating
losses to the DIF was limited because PCA did not require action until the institution was
at serious risk of failure.

Based on the results of the October 2007 examination, the FDIC issued a C&D in March
2008 that included, among other things, a capital provision that directed Westsound to
maintain the following capital ratios: (1) Tier 1 Capital of 8 percent, (2) Tier 1 Risk-
Based Capital of 10 percent, and (3) Total Risk-Based Capital of 13 percent. Such ratios
were greater than the minimum required by PCA for Well Capitalized institutions, as
shown in Table 6 below. As a result of the C&D, Westsound became subject to certain
restrictions defined in PCA, including a prohibition on the acceptance, renewal, or
rollover of brokered deposits without a waiver approval from the FDIC. Although,
according to the FDIC, the bank never formally applied for a waiver, examiners found
during the August 2008 examination that the bank had apparently violated the C&D by
offering deposits that exceeded a market average by more than 75 basis points. The
FDIC required Westsound to identify and reclassify those deposits as brokered deposits
and to amend any Call Reports the bank had filed to include the brokered deposits.


                                             13
As shown in Table 6, Westsound’s capital ratios met the PCA definitions of Well
Capitalized until it was closed. Nevertheless, increasing losses in the loan portfolio were
rapidly depleting capital.

Table 6: Westsound’s Capital Levels Relative to PCA Thresholds for Well
Capitalized Institutions
                                   Well
                                Capitalized      October 2007       August 2008        March 2009
 Capital Ratio                  Threshold        Examination        Examination        Call Report
 Tier 1 Leverage Capital         5% or more         13.52%             9.73%              8.02%
 Tier 1 Risk-Based Capital       6% or more         14.25%            13.53%              9.64%
 Total Risk-Based Capital       10% or more         15.54%            14.82%             10.93%
Source: OIG Analysis of UBPRs and the August 2008 ROE for Westsound, as well as Section 38 of the FDI
Act and 57 Federal Register 44866-01.



Corporation Comments
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On November 30, 2009, the
Director, DSC, provided a written response to the draft report. That response is provided
in its entirety as Appendix 4 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of Westsound’s failure. With
regard to our assessment of the FDIC’s supervision of Westsound, DSC’s response cites
several supervisory activities, discussed in our report, that were taken to address key risks
in Westsound. DSC’s response also states that it has provided guidance reminding
examiners to take appropriate action when concentration risks are imprudently managed,
and issued guidance on structuring compensation, which directed bank management to
develop policies that are aligned with the institution’s long-term prudential interests.




                                                 14
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

The objectives of this material loss review were to: (1) determine the causes of
Westsound Bank’s failure and the resulting material loss to the DIF and (2) evaluate the
FDIC’s supervision of Westsound, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act.

We conducted the audit from June 2009 to November 2009, in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope and Methodology

To achieve the audit objectives, we performed the following procedures and techniques:

   •   Analyzed examination and visitation reports prepared by the FDIC and the DFI
       from 2000 to 2008.

   •   Analyzed available examination work papers prepared by the FDIC and the DFI
       from 2006 to 2008.

   •   Reviewed the following:

       - Bank data contained in UBPRs and Call Reports.
       - Correspondence maintained at the DSC’s San Francisco Regional Office and
         Seattle Field Office.
       - Reports prepared by the Division of Resolutions and Receiverships and DSC
         relating to the bank’s closure.
       - Pertinent DSC policies and procedures.




                                             15
                                                                               Appendix 1

                   Objectives, Scope, and Methodology

   •   Interviewed the following FDIC officials:

       - DSC management in San Francisco, California, and Seattle, Washington.
       - FDIC examiners from the DSC Seattle Field Office who participated in
         Westsound examinations.

   •   Interviewed DFI officials from Tacoma, Washington, to discuss their historical
       perspective of the institution, its examinations, and other activities regarding the
       DFI’s supervision of the bank.

We performed our audit field work at OIG offices in Arlington, Virginia, and Dallas,
Texas.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with our audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC’s systems, reports,
ROEs, and interviews of examiners to obtain an understanding of Westsound’s
management controls pertaining to the causes of failure and material loss as discussed in
the body of this report. Although we obtained information from various FDIC systems,
we determined that the controls pertaining to these systems were not significant to the
audit objectives, and therefore, did not evaluate the effectiveness of information system
controls. We relied on information from various sources, including ROEs,
correspondence files, and testimonial evidence, to corroborate data obtained from
systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act. The results of our tests were
discussed where appropriate in the report. Additionally, we assessed the risk of fraud and
abuse related to our objectives in the course of evaluating audit evidence.




                                             16
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of loan.
Bank Board          A BBR is an informal commitment, adopted by a financial institution’s
Resolution (BBR)    Board, directing the institution’s personnel to take corrective action
                    regarding specific noted deficiencies.
Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank pursuant to the
                    Federal Deposit Insurance Act. These reports are used to calculate
                    deposit insurance assessments and monitor the condition, performance,
                    and risk profile of individual banks and the banking industry.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Federal Home        The Federal Home Loan Bank System provides liquidity to member
Loan Bank           institutions that hold mortgages in their portfolios and facilitates the
(FHLB)              financing of mortgages by making low-cost loans, called advances, to its
                    members. Advances are available to members with a wide variety of
                    terms to maturity, from overnight to long term, and are collateralized.
                    Advances are designed to prevent any possible loss to FHLBs, which
                    also have a super lien (a lien senior or superior to all current and future
                    liens on a property or asset) when institutions fail. To protect their
                    position, FHLBs have a claim on any of the additional eligible collateral
                    in the failed bank. In addition, the FDIC has a regulation that reaffirms
                    FHLB priority, and FHLBs can demand prepayment of advances when
                    institutions fail.
Loan-to-Value       A ratio for a single loan and property calculated by dividing the total
                    loan amount at origination by the market value of the property securing
                    the credit plus any readily marketable collateral or other acceptable
                    collateral.




                                             17
                                                                                Appendix 2

                               Glossary of Terms

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq, implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital adequacy:
                    (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action of compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.
Uniform Bank        The UBPR is an individual analysis of financial institution financial data
Performance         and ratios that includes extensive comparisons to peer group
Report (UBPR)       performance. The report is produced by the Federal Financial
                    Institutions Examination Council for the use of banking supervisors,
                    bankers, and the general public and is produced quarterly from data
                    reported in Consolidated Reports of Condition and Income submitted by
                    banks.




                                            18
                                                                        Appendix 3

                              Acronyms


ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CLP      Contingency Liquidity Plan

CRE      Commercial Real Estate

DFI      Washington State Department of Financial Institutions

DIF      Deposit Insurance Fund

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

IPO      Initial Public Offering

IT       Information Technology

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System

WSB      WSB Financial Group, Inc.




                                     19
                                                                                                                  Appendix 4

                                      Corporation Comments


FDIC!
Federal Deposit Insurince Corporation
55 17th Streei NW, Washinglon, DC. 2029-999                         Divisio of Suprvision an Consumer Protecion

                                                                    November 30, 2009
MEMORANDUM TO:                       Stephen Beard
                                     Assistant Inspector General for Material Loss Reviews

FROM:                                Sandra L. Thompson
                                     Director

SUBJECT:                             Draft Audit Report Entitled, Material Loss Review of Westsound
                                     Bank, Brernerton, Washington
                                     (AssiglUent No. 2009-048)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation's Offce of Inspector Oeneral (010) conducted a material loss review of
West sound Bank (Westsound) which failed on May 8, 2009. This memorandum is the response
of the Division of Supervision and Consumer Protection (DSC) to the 010' s Draft Report
(Report) received on November 2, 2009.

The Report concludes Westsound failed because its Board and management did not implement
risk management practices commensurate with rapid asset growth and a loan portfolio consisting
of higher risk commercial real estate (CRE) loans with significant concentrations in acquisition,
development and construction (ADC). West         sound maintained weak loan underwiting and credit
administration practices, which became apparent as the local real estate market deteriorated.
Also contributing to the poor quality of loans was an inadequately designed and monitored
incentive compensation program, which led to a significant volume of      adversely classified loans
being generated by one of    the ban's offcials. As loan losses related to the ADC loans were
recognized, capital eroded and liquidity became strained. Westsounds viability was also
impacted by negative publicity associated with a shareholder lawsuit.

Westsounds lending policies did not keep pace with the growt and increasing complexity of       the
loan portfolio, paricularly in 2004 and 2005, when loan growth exceeded 80 percent. FDIC
examiners reported in February 2006, that the risk profie of the loan portfolio was elevated by
rapid growth, high concentrations in ADC and CRE loans, and by the volume of      high loan-to-
value credits. Examiners recommended improvements to risk management processes in relation
to economic conditions and asset concentrations, and management agreed to improve the credit
policy, establish and track concentration limits, and improve loan quality reporting capabilities.

Following the February 2007, examination, FDIC examiners conducted a supervisory visit in
August 2007, to investigate lending irregularities. This visit uncovered deficient risk
management controls and prompted ajoint full-scope examination in October 2007, resulting in
a Cease and Desist Order to address Westsounds weaknesses. In July 2008, DSC issued
guidance reminding examiners to take appropriate action when concentration risks are
imprudently managed. Additionally in November 2008, DSC issued guidance on structuring
compensation, which directed bank management to develop policies that are aligned with the
institution's long-term prudential interests.

Thank you for the opportunity to review and comment on the Report.




                                                           20
